PO BOX 89909
Tampa, FL 33689-0415

IMPORTANT CREDIT CARD DISCLOSURES
4/7/2020 .
The following disclosure represents important details concerning your credit card. The information about costs of the card is accurate as of __________
You can contact us toll free at 1-800-839-6328 or the address above to inquire if any changes occurred since the effective date.
INTEREST RATES and INTEREST CHARGES:
VISA PLATINUM PREFERRED
Annual Percentage Rate
(APR) for Purchases &
Balance Transfers

SECURED VISA PLATINUM
PREFERRED

VISA PLATINUM REWARDS

VISA PLATINUM
CASH REWARDS

1.99% to 4.99%

1.99% to 11.99%

1.99% to 8.99%

Introductory APR for qualifying
members, for a period of six
billing cycles depending on your
credit history. After that, or if you
do not qualify for the Introductory
APR, your Standard APR will be

Introductory APR for qualifying
members, for a period of six
billing cycles depending on your
credit history. After that, or if you
do not qualify for the Introductory
APR, your Standard APR will be

6.99% to 17.49%

6.99% to 15.74%

Introductory APR for qualifying
members, for a period of six billing
cycles depending on your credit
history. After that, or if you do not
qualify for the Introductory APR,
depending on
your Standard APR will be
your credit
history. This APR
will vary with the
market based on
the Prime Rate.

13.99% to
15.74%

11.24% to 15.24%

depending on your credit history. depending on your credit history. depending on your credit history.
This APR will vary with the
This APR will vary with the
This APR will vary with the market
market based on the Prime Rate. market based on the Prime Rate. based on the Prime Rate.
APR for Cash Advances

18.00%

Penalty APR and When
it Applies

18.00%
This APR may be applied to your account if you make a payment that is late 60 days or more twice in a 12-month period.
How Long Will the Penalty APR Apply? If we increase your APRs due to a late payment, we may keep them at this
higher level on existing and new balances for a period of six billing cycles.

Paying Interest

Your due date is at least 25 days after we mail your billing statement. We will not charge you interest on purchases or
balance transfers if you pay your entire new purchase balance or balance transfer balance by the due date each month.
We will begin charging interest on cash advances on the transaction date.

Minimum Interest Charge None
For Credit Card Tips from To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer
the Consumer Financial
Financial Protection Bureau at http://www.consumerfinance.gov/learnmore
Protection Bureau
FEES:
Transaction Fees
- Balance Transfer:
- Cash Advance:
- Foreign Transaction:
Penalty Fees
- Late Payment:
- Returned Payment:

None
None
1% of each transaction in U.S. dollars if the transaction involves a currency conversion
1% of each transaction in U.S. dollars if the transaction does not involve a currency conversion
up to $25.00 for the first offense, up to $35.00 for a second offense occurring within 6 billing cycles following the initial offense
up to $25.00 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases)."
Loss of Introductory Rate: We may end your Introductory Rate and apply the Penalty APR disclosed above if you make a late payment.
Overdraft Protection: If you have overdraft protection linked to your credit card account, overdrafts will be charged to your card at the cash advance
18.00
APR of ________%.
Important-Credit-Card-Disclosures_1_initialHereTabs

9009 LASER ML FPDF FI17189 Rev 1-2016

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

